HHS/OIG-Audit--"Review of the 1997 Adjusted Community Rate Proposal for a Missouri Risk-Based Managed Care Organization, (A-07-99-01275)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the 1997 Adjusted Community Rate Proposal for a Missouri Risk-Based
Managed Care Organization," (A-07-99-01275)
June 22, 1999
Complete Text of Report is available in PDF format
(171 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability
of administrative costs included in the adjusted community rate (ACR) process
for determining Medicare capitation rates under risk-based contracts with managed
care organizations (MCO). At a Missouri risk-based MCO we found that the Medicare
administrative cost component of the Plan's 1997 ACR proposal exceeded the Plan's
actual 1997 administrative expenses for the Plan's entire operation by approximately
$21 million. We also identified unsupported costs of $2,131,749 for items such
as management fees, commissions, rental/lease costs, and interest on long-term
debt, and costs of $69,594 for items such as entertainment, charitable donations,
political contributions, lobbying, and public relations that would not be allowable
if existing Medicare regulations, applicable to other parts of the Medicare
program, were applied to risk-based MCOs. The methodology which allows MCOs
to apportion administrative costs to Medicare is flawed and results in Medicare
covering a disproportionate amount of the MCO's administrative costs. Additional
reviews are ongoing and preliminary results show similar problems at other MCOs.
The results of these reviews are being shared with the Health Care Health Financing
Administration so that appropriate legislative changes can be considered.